No. ______

In the
Supreme Court of the United States
ELIN ROBINSON MEJIA ROMERO,
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39 of the Rules of this Court, the petitioner
moves to file the attached Petition for Writ of Certiorari to the United States Court
of Appeals for the First Circuit without prepayment of costs and to proceed in forma

pauperis.
The petitioner was represented in the United States Court of Appeals for the
First Circuit by counsel appointed pursuant to the Criminal Justice Act (18 U.S.C. ยง
3006A).

/z/ Zainabu Rumala

Zainabu Rumala
Attorney for Petitioner

Dated: January 8, 2021

